No. 21A21
IN THE

Supreme Court of the United States
JOSEPH R. BIDEN, JR., PRESIDENT OF THE UNITED
STATES, ET AL.,

Applicants,
v.
TEXAS, ET AL.,

Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I
certify that the Motion for Leave to File Brief of Al
Otro Lado as Amici Curiae in Support of Applicants
and the Brief of Al Otro Lado in Support of
Applicants complies with the word limitations. The
unopposed contains 471 words and the amici brief
contains 3392 words, excluding the parts of the
document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the
foregoing is true and correct.
/s/ Diego J. Aranda Teixeira
Counsel of Record
Date: August 23, 2021

